UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

MAR 26 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

DAVID B. PORTEE,
Petitioner-Appellant,
v.
CRAIG KOENIG, Acting Warden,

No.

20-15104

D.C. No. 3:19-cv-02948-JD
Northern District of California,
San Francisco
ORDER

Respondent-Appellee.
Before:

CHRISTEN and WATFORD, Circuit Judges.

The request for a certificate of appealability is denied because appellant has
not shown that “jurists of reason would find it debatable whether the petition states
a valid claim of the denial of a constitutional right and that jurists of reason would
find it debatable whether the district court was correct in its procedural
ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000); see also 28 U.S.C.
v
§ 2253(c)(2); Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012).
Any pending motions are denied as moot.
DENIED.

r>

<

i

\

/

APPENDIX B
5

s

f

Case 3:19-cv-02948-JD Document 10 Filed 01/06/20 Page 1 of 4

2
3
4

UNITED STATES DISTRICT COURT

5

NORTHERN DISTRICT OF CALIFORNIA

6
7

DAVID B. PORTEE,
Petitioner,

8
9

V.

10

KOENIG,

11
.2
t £
3

!-

© £

Case No. 19-cv-02948-JD

ORDER OF DISMISSAL

Respondent.

12
13

Petitioner, a California prisoner, proceeds with a pro se petition for a writ of habeas corpus

C'S

.2 U

S o

5 s
C/3

S—

15

on Q
-o c
<U

+2

0)

14

pursuant to 28 U.S.C. § 2254. The original petition was dismissed with leave to amend and

15

petitioner has filed an amended petition.

j=

17

Z

1.8

c ti
D o

DISCUSSION

16
STANDARD OF REVIEW

The Court may consider a petition for writ of habeas corpus “in behalf of a person in

19
custody pursuant to the judgment of a State court-only on the ground that he is in custody in
20
violation of the Constitution or laws or treaties of the United States.” 28 U.S.C. § 2254(a); Rose v.
21
Hodges, 423 U.S. 19, 21 (1975). Habeas corpus petitions must meet heightened pleading
22
requirements. McFarland v. Scott, 512 U.S. 849, 856 (1994). An application for a federal writ of
23
habeas corpus filed by a prisoner who is in state custody pursuant to a judgment of a state court
24
must “specify all the grounds for relief available to the petitioner... [and] state the facts supporting
25

V

each ground.” Rule 2(c) of the Rules Governing § 2254 Cases, 28 U.S.C. § 2254. “‘[N]otice’
26
pleading is not sufficient, for the petition is expected to state facts that point to a ‘real possibility
27
28

Case 3:19-cv-02948-JD Document 10 Filed 01/06/20 Page 2 of 4

1

of constitutional error.’” Rule 4 Advisory Committee Notes (quoting Aubutv. Maim, 431 F.2d

2

688, 689 (1st Cir. 1970)).

3

LEGAL CLAIM

4

Petitioner was convicted in 1982 and sentenced to life in prison. Am. Pet. at 1. In the

5

original habeas petition, the main argument was that the judges involved with various events in

6

petitioner’s case in 1981 -- his arrest warrant, a search warrant, and a preliminary hearing — did

7

not have proper oaths of office in place. This was, on its face, a highly doubtful claim, but the

8

Court determined in any event that it appeared to be successive or untimely. The petition was

9

dismissed with leave to amend to address that issue, which is now taken up here.

10

<0

11

that was not presented in a prior application shall be dismissed . ..” 28 U.S.C. § 2244(b)(2). This

12

is the case unless,

3 £

61 13
-*-> C3

.9 U

14

5 3

15

£ t/5

S5
-73 £

g£

c t:
D o
Z

“A claim presented in a second or successive habeas corpus application under section 2254

16

17
18
19

(A) the applicant shows that the claim relies on a new rule of
constitutional law, made retroactive to cases on collateral review by
the Supreme Court, that was previously unavailable; or
(B) (i) the factual predicate for the claim could not have been
discovered previously through the exercise of due diligence; and
(ii) the facts underlying the claim, if proven and viewed in
light Of the evidence as a whole, would be sufficient to establish by
clear and convincing evidence that, but for constitutional error, no
reasonable factfinder would have found the applicant guilty of the
underlying offense.
28 U.S.C. § 2244(b)(2).
“Before a second or successive application permitted by this section is filed in the district

20

court, the applicant shall move in the appropriate court of appeals for an order authorizing the
21
district court to consider the application.” 28 U.S.C. § 2244(b)(3)(A).
22

The Antiterrorism and Effective Death Penalty Act of 1996, which became law on April
23

24, 1996, imposed for the first time a statute of limitations on petitions for a writ of habeas corpus
24

filed by state prisoners. Petitions filed by prisoners challenging noncapital state convictions or
25
26
27

sentences must be filed within one year of the latest of the date on which: (A) the judgment
became final after the conclusion of direct review or the time passed for seeking direct review; (B)
an impediment to filing an application created by unconstitutional state action was removed, if

28
•2

j

Case 3:19-cv-02948-JD Document 10 Filed 01/06/20 Page 3 of 4

1

such action prevented petitioner from filing; (C) the constitutional right asserted was recognized

2

by the Supreme Court, if the right was newly recognized! by the Supreme Court and made

.3

retroactive to cases on collateral review; or (D) the factual predicate of the claim could have been

4

discovered through the exercise of due diligence. 28 U.S.C. § 2244(d)(1). A prisoner with a state

5

conviction finalized before April 24, 1996, had until April 24, 1997, to file a federal habeas

6

petition on time. Patterson v. Stewart, 251 F.3d 1243, 1246 (9th Cir. 2001).

7

Petitioner says that the petition is timely and not successive because he recently discovered

8

that the judges involved in his case in 1981 did not have oaths of office filed with the Secretary of

9

State. The point is not well taken. To start, petitioner has not proffered any evidence showing the

10

lack of a proper oath. At most, he says he personally hasn’t seen what he considers to be

11

appropriate documentation of the oaths. That is not evidence. Moreover, the facts relevant to the

12

petition date back to 1981 or before. It is not at clear how any of this is, or could ever be deemed,

O £

13

new.

lu
£ o
5 ts

14

cd

■S I

That is enough to dismiss the case with prejudice. The Court also notes that, even if the

cn 'E

15

petition were proper, it fails to state a viable claim for relief. Petitioner’s argument that there was

3 5

16

an error under state law does not entitle him to relief because the state courts already denied this

-a B
£ £

17

claim. See Estelle v. McGuire, 502 U.S. 62, 67-68 (1991) (a federal habeas court cannot

18

reexamine a state court’s interpretation and application of state law).

£

‘ c ti

D o

2

CONCLUSION

19
20

21
22
23

The case is DISMISSED and the Clerk is requested to close the file. The Court declines
to issue a certificate of appealability. See Slack v. McDaniel, 529 U.S. 473, 484 (2000).
IT IS SO ORDERED.
Dated: January 6, 2020

24

25
JAMES DjpfATO
United Stmes District Judge

26
27

28
3

APPENDIX C

SUPERIOR COURT, STATE OF CALIFORNIA
COUNTY OF SANTA CLARA
Department 20, Honorable Carrie Zepeda
for
Department 19, Honorable Peter H. Kirwan, Presiding
Malanie Bueno, Courtroom Clerk
Court Reporter: SEE NOTE BELOW
191 North First Street, San Jose, CA 95113
Telephone: 408.882.2320
To contest the ruling, call (408) 808-6856 before 4:00 P.M.
LAW AND MOTION TENTATIVE RULINGS
DATE: April 17, 2018
TIME: 9 A.M.

PLEASE NOTE: EFFECTIVE 7-24-17, THE COURT WILL NO
LONGER BE PROVIDING COURT REPORTERS. IF YOU WANT A
COURT REPORTER AT YOUR HEARING, ALL PARTIES MUST
JOINTLY AGREE AND A ST1PULA TION AND APPOINTMENT MUST
BE COMPLETED. SEE FORM CIV-5063
THE COURT WILL PREPARE THE ORDER UNLESS STATED
OTHERWISE BELOW
TROUBLESHOOTING TENTATIVE RULINGS
If you see last week's tentative rulings, you have checked prior to the posting of the
current week's tentative rulings. You will need to either “REFRESH" or “QUIT" your
browser and reopen it. If you fail to do either of these, your browser will pull up old
information from old cookies even after the tentative rulings have been posted.
LINE#
CASE #
CASE TITLE
RULING
LINE I 16cv295764
TX Trading vs. Jack Off Calendar
Xu, et al
•'1
LINE 2 16cv295764
TX Trading vs. Jack Off Calendar
Xu, et al
LINE 3 16cv295764
TX Trading vs. Jack Off Calendar
Xu, et al
Click.on Line 4 for ruling.
LINE 4 16cv300503
David Portee vs.
Fred Lucero, et al
Click on Line 5 for ruling.
LINE 5 16cv300503
David Portee vs.
Fred Lucero, et al
LINE 6 17cv317308
Pacific Construction Defendants Nunez General contractors and
Enrique Nunez Covarrubias’ Demurrer to the
& Design, Inc vs.
Complaint
and Motion for Judicial Notice are
Nunez General
unopposed
and GRANTED. Plaintiff shall
Contractors, Inc., et
have
20
days
leave to amend from the date of
al
service of the order.

9

-ooOoo -

Calendar Line 4
Case No. 16 CV 3000503
David Portee v. Fred Lucero, et al

The Honorable Defendants Fred S. Lucero, John A. Flaherty and Leonard P. Edwards
filed a demurrer to Plaintiffs complaint. Plaintiff David Portee did not file an opposition to
the dem'urrer, but instead, filed a pleading entitled, “Plaintiff, David Portee’s Notice of
Motions: Request for Extension of time to File Objections to Defendants' Notice of Demurrer
by Defendants Judge Fred S. Lucero (Ret.),-Judge Leonard P.. Edwards (Ret), and Judge John
A. Flaherty (ret.) Motion for Stay of Proceedings for a Determination Whether the “Judicial
Defendants’ were in Fact “Judicial Actors”, without an Oath of Office or Bond, at.the Time of
Proceedings and Acts Taken in a Judicial Capacity.” As set forth in the ruling on Line 5 •
herein, Plaintiffs Notice of Motion did not contain any memorandum of points and authorities
and didjnot address the issues or law related to a request for extension of time or to stay the
proceedings. Furthermore, the Notice of Motion did not address the arguments raised in the
demurrer, such as the failure to comply with the Government Claims Act or statute of
limitations. Accordingly, the court determines that Defendants’ Demurrer is unopposed and
is GRANTED without leave to amend.

!

►

\PPSNDIX P
k

v'

Court of Appeal, Sixth Appellate District
Susan S. Miller, Clerk/Kxecutive Officer
Electronically FILED on 3/7/2019 by j. Segura. Deputy Clerk

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNL
SIXTH APPELLATE DISTRICT
{
t

DAVID B. PORTEE,
Petitioner,
v.
THE SUPERIOR COURT OF SANTA CLARA COUNTY,
Respondent;
FRED LUCERO,
Real Party in Interest.
H046415
Santa Clara County Super. Ct. No. CV300503

BY THE COURT:
The petition for writ of mandate or other appropriate relief and the request for stay
are denied.

(Elia, Acting P.J., Bamattre-Manoukian, J. and Mihara, J. participated in this
decision.)

t

Date:

03/08/2019

Acting P.J.

«•

CONCLUSION
The petition for writ of certiorari should he granted.
Respectfully submitted,

ill

xm.

6.

